No.

IN THE

SUPREME COURT OF THE UNITED STATES

ema ashen hoshen — PETITIONER

(Your Name)

vs.
United States of Pmenics — RESPONDENT(S)

PROOF OF SERVICE

\

IL hemo hashen do swear or declare that on this date,,
3]Q% 20.1. as required by Supreme Court Rule 29 I have

served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS*+
Applicasion and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
to \eavato or that party’s counsel, and on every other person required to be served, by depositing
ily {ho wit an envelope containing the above documents in the United States mail properly addressed
cantionond to each of them and with first-class postage prepaid, or by delivery to a third-party

im ancess q commercial carrier for delivery within 3 calendar days.

the wow The names and addresses of those served are as follows:

limi Shiai Ge : Room Sb 1Y

‘Dipositomemt ofTushiee 950 fennsylvenia Ave Nid
\ashimgton De _20S30-600 1

I declare under penalty of perjury that the areqing? is true and correct.
Executed on _— 3\a8 =e 20a)

 

\unalanhon

(Signature)
